         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report




       Information Security Series:
       Security Practices

       Comprehensive Environmental
       Response, Compensation, and
       Liability Information System
       Report No. 2006-P-00019

       March 28, 2006
Report Contributors:      Rudolph M. Brevard
                          Charles Dade
                          Neven Morcos
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
C&A          Certification and Accreditation
CERCLIS      Comprehensive Environmental Response, Compensation, and Liability
             Information System
EPA          U.S. Environmental Protection Agency
FISMA        Federal Information Security Management Act
NCC          National Computer Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
OSWER        Office of Solid Waste and Emergency Response
POA&M        Plan of Action and Milestones
RTP          Research Triangle Park
                       U.S. Environmental Protection Agency                                                2006-P-00019

                       Office of Inspector General                                                        March 28, 2006





                       At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review              Information Security Series: Security Practices
As part of our annual audit of
                                    Comprehensive Environmental Response,
the Environmental Protection        Compensation, and Liability Information System
Agency’s compliance with the
Federal Information Security        What We Found
Management Act (FISMA), we
reviewed the security practices     The Office of Solid Waste and Emergency Response’s (OSWER’s) implemented
for a sample of key Agency          practices to ensure production servers were being monitored for known
information systems, including      vulnerabilities and personnel with significant security responsibility completed the
the Comprehensive                   Agency’s recommended specialized security training. However, we found that
Environmental Response,             OSWER’s CERCLIS, a major application, was operating without a current (1)
Compensation, and Liability         certification and accreditation package and (2) contingency plan or testing of the
Information System                  plan. OSWER officials could have discovered the noted deficiencies had they
(CERCLIS).                          implemented practices to ensure these Federal and Agency information security
                                    requirements were followed. As a result, CERCLIS had security control weaknesses
Background                          that could effect OSWER’s operations, assets, and personnel.

FISMA requires agencies to          What We Recommend
develop policies and
procedures commensurate with        We recommend that the CERCLIS System Owner:
the risk and magnitude of harm
resulting from the malicious or     ¾	 Conduct an independent review of security controls and a full formal risk
unintentional damage to the            assessment of CERCLIS and update the certification and accreditation package in
Agency’s information assets.           accordance with Federal and Agency requirements,
CERCLIS provides critical
information in support of the       ¾	 Conduct a test of the updated CERCLIS contingency plan, and
Superfund program (a Federal
mandate to clean up the             ¾	 Develop a Plan of Action and Milestones in the Agency’s security weakness
Nation’s uncontrolled                  tracking system (ASSERT database) for all noted deficiencies.
hazardous waste sites).
                                    We recommend that the OSWER Information Security Officer:

                                    ¾	 Conduct a review of OSWER’s current information security oversight processes
                                       and implement identified process improvements.
For further information, contact
our Office of Congressional and     OSWER agreed with the report’s findings and has indicated that it has updated the
Public Liaison at (202) 566-2391.
                                    CERCLIS security plan and re-authorized the application. OSWER officials also
To view the full report,            indicated that they updated the CERCLIS contingency plan and conducted a tabletop
click on the following link:        exercise of the updated plan. OSWER’s complete response in included at
www.epa.gov/oig/reports/2006/       Appendix A.
20060328-2006-P-00019.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          March 28, 2006

MEMORANDUM

SUBJECT: 	             Information Security Series: Security Practices
                       Comprehensive Environmental Response, Compensation, and Liability
                       Information System
                       Report No. 2006-P-00019

FROM: 	                Rudolph M. Brevard /s/
                       Director, Information Technology Audits

TO:        	           Susan Parker Bodine
                       Assistant Administrator for Solid Waste and Emergency Response


This is our final report on the information security controls audit of the Office of Solid Waste
and Emergency Response’s Comprehensive Environmental Response, Compensation, and
Liability Information System. This audit report contains findings that describe problems the
Office of Inspector General (OIG) has identified and corrective actions the OIG recommends.
This audit report represents the opinion of the OIG, and the findings in this audit report do not
necessarily represent the final U.S. Environmental Protection Agency (EPA) position. EPA
managers, in accordance with established EPA audit resolution procedures, will make final
determinations on matters in this audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0893.
                                       Table of Contents 

At a Glance

Purpose of Audit…………………………………………………………………………………...                                                                                       1

Background…………………………………………………………………………………………                                                                                             1

Scope and Methodology .....................................................................................................              2

CERCLIS’ Compliance with Federal and Agency Security Requirements ....................                                                   3

     Certification and Accreditation ………………….. .............................................................                             4
     Contingency Planning ………………………………………………………………………….                                                                                  4

Recommendations...............................................................................................................           5

Agency Comments and OIG Evaluation ............................................................................                          5



Appendices
A     Agency Response to Draft Report .............................................................................                      6    


B     Distribution ...................................................................................................................   9

Purpose of Audit
          Our objective was to determine whether the Office of Solid Waste and Emergency
          Response’s (OSWER’s) Comprehensive Environmental Response,
          Compensation, and Liability Information System (CERCLIS) complied with
          Federal and Agency information system security requirements. CERCLIS
          provides critical information and processing in support of the Superfund program
          (a Federal mandate to clean up the nation’s uncontrolled hazardous waste sites).

Background
          We conducted this audit pursuant to Title III of the E-Government Act of 2002,
          commonly referred to as the Federal Information Security Management Act
          (FISMA). FISMA requires the Agency to develop policies and procedures
          commensurate with the risk and magnitude of harm resulting from the malicious
          or unintentional damage to the Agency’s information assets. EPA’s Chief
          Information Officer is responsible for establishing and overseeing an Agency-
          wide program to ensure that the security of its network infrastructure is consistent
          with these requirements. Program offices are responsible for managing the
          implementation of these security requirements within their respective
          organizations.

          Program offices should create a Plan of Action and Milestones (POA&M) when it
          identifies a security control weakness. The POA&M, which documents the
          planned remediation process, is recorded in the Agency’s Automated Security
          Self-Evaluation and Remediation Tracking (ASSERT) tool. ASSERT is used to
          centrally track remediation of weaknesses associated with information systems
          and serves as the Agency’s official record for POA&M activity.

          FISMA requires the Inspector General, along with the EPA Administrator, to
          report annually to the Office of Management and Budget (OMB) the status of
          EPA’s information security program. The OIG provided the results of its review
          to OMB in Report No. 2006-S-00001, Federal Information Security Management
          Act, Fiscal Year 2005 Status of EPA’s Computer Security Program, issued
          October 3, 2005.

          During our annual FISMA review, we selected one major application from each
          of five EPA program offices and reviewed the security practices surrounding
          those applications. Our review noted instances where EPA could improve its
          security practices overall and the OIG reported the results to EPA’s Chief
          Information Officer in Report No. 2006-P-00002, EPA Could Improve Its
          Information Security by Strengthening Verification and Validation Processes,
          issued October 17, 2005.

          This audit report is one in a series of reports being issued to the five program
          offices that had an application reviewed. This report addresses findings and

                                            1

         recommendations related to information security practice weaknesses identified in
         OSWER. In particular, this report summarizes our results regarding how
         OSWER implemented Federal and EPA information security requirements. This
         report also includes our evaluation of how OSWER implemented, tested, and
         evaluated information security controls to ensure continued compliance with
         Federal and Agency requirements for selected security objectives. The Scope and
         Methodology section contains the specific security objectives we audited.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005 at EPA Headquarters
         in Washington, DC, and the National Computer Center (NCC) in Research
         Triangle Park (RTP), North Carolina. We interviewed Agency officials at both
         locations and contract employees at the NCC. We reviewed relevant Federal and
         Agency information security standards. We reviewed application security
         documentation to determine whether it complied with selected standards. We
         reviewed system configuration settings and conducted vulnerability testing of
         servers for known vulnerabilities. We reviewed training records for personnel
         with significant security responsibilities.

         We reviewed the following security practices for CERCLIS:

              x	 Security Certification and Accreditation (C&A) practices: We
                 reviewed CERCLIS’ C&A package to determine whether the security
                 plan was updated and re-approved at least every 3 years and the
                 application was reauthorized at least every 3 years, as required by OMB
                 Circular A-130 and EPA policy.

              x	 Application contingency plans: We reviewed CERCLIS’ contingency
                 planning practices to determine whether OSWER complied with
                 requirements outlined in EPA Directive 2195A1 (EPA Information
                 Security Manual), National Institute of Standards and Technology
                 Special Publication 800-34 (Contingency Planning Guide for
                 Information Technology Systems), and EPA procedures document
                 Procedures for Implementing Federal Information Technology Security
                 Guidance and Best Practices.

              x	 Security controls: We identified two areas of security controls: (1)
                 system vulnerability monitoring, which included conducting
                 vulnerability testing; and (2) physical access controls. The NCC
                 manages the servers that run the CERCLIS application and provides the
                 primary security controls for the application. Therefore, when
                 evaluating system vulnerability monitoring, we evaluated practices at the
                 NCC. We did not test physical security controls at the NCC, because the
                 NCC was undergoing an audit of these controls at the time of our
                 review. This audit found instances where EPA could improve its

                                         2

                  physical controls at RTP and reported the results in Report No.
                  2006-P-00005, EPA Could Improve Physical Access and Service
                  Continuity/ Contingency Controls for Financial and Mixed-Financial
                  Systems Located at its Research Triangle Park Campus, issued
                  December 14, 2005.

              x	 Annual Training Requirements: We reviewed whether employees
                 with significant security responsibilities satisfied annual training
                 requirements.

         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States.

CERCLIS’ Compliance with Federal and Agency Security
Requirements
         We noted CERCLIS’ production servers were being monitored for known
         vulnerabilities and personnel with significant security responsibility had
         completed the Agency’s recommended specialized security training. However,
         our audit (1) disclosed that CERCLIS had deficiencies related to other significant
         security practices, and (2) highlighted areas where OSWER should place more
         emphasis to comply with established requirements. In particular, our review
         noted that CERCLIS contained security weaknesses in the following areas:

              x	 The C&A package – consisting of a security plan, a third-party risk
                 assessment, and a written authorization for operation – had not been
                 updated in response to recent major system changes.

              x	 The contingency plan had not been updated and tested in response to
                 recent major system changes.

         Preparing and maintaining an updated C&A package are vital in helping
         management determine whether effective security controls are in place and work
         as intended to operate an application. Updating and testing the contingency plan
         assist management in determining whether the organization could recover from a
         disruption in service. These two important security controls help ensure the
         Agency’s network infrastructure is adequately protected. These widely
         recognized preventive controls aid in reducing the likelihood that security
         incidents will occur, and by not emphasizing these key security controls, OSWER
         places the integrity and availability of CERCLIS at risk. In response to these
         findings, OSWER officials indicated that they have updated the CERCLIS
         security and contingency plans and have conducted a tabletop exercise of the
         updated contingency plan.




                                          3

Certification and Accreditation

Our audit revealed that the CERCLIS system owners had not updated the
application security plan, risk assessment, and authorization for operation related
to a recent major change in processing, as required by Federal and Agency policy.
During our audit, we determined that CERCLIS had undergone a major change in
processing. Specifically, CERCLIS changed from a decentralized application
(distributed throughout EPA Headquarters and 10 EPA regional offices) to a
centralized application (hosted by the NCC in RTP). However, we found that the
CERCLIS security plan and risk assessment had not been updated, and the system
had not been re-authorized for operation related to this “major change” in
processing.

Senior OSWER officials use these key C&A security documents to make the
decision about whether CERCLIS’ security controls are sufficient and if
adjustments to security controls are necessary before reaccrediting (reauthorizing)
CERCLIS for continued operation. In addition, the assessment of risk and the
development of system security plans are important activities in the Agency’s
information security program that directly support security accreditation
(management's authorization for system operation). OSWER officials indicated
that they have since updated CERCLIS’ security plan to reflect these major
system changes and re-authorized the application. OSWER also indicated that the
CERCLIS Team Leader would make a determination when the next risk
assessment is to be scheduled.

Contingency Planning

Although OSWER had developed and tested a contingency plan for CERCLIS,
the program office had not updated the plan to reflect major changes made to the
system. In audit Report No. 2006-P-00005, the OIG reported that CERCLIS’
contingency plan did not identify critical resources needed during an outage. The
OIG was unable to determine whether contracts were in place for the restoration
of the application. In response to this finding, OSWER officials indicated that
they conducted a tabletop exercise of CERCLIS in September 2005. However,
OSWER officials did not indicate when the office would test the new plan.

Although OSWER conducted the tabletop exercise, Federal requirements specify
that exercises and tests should be conducted to ensure that the procedures
continue to be effective. In addition, testing of the plan would enable OSWER to
become familiar with the necessary recovery steps and help management identify
where additional emphasis is needed. OSWER officials indicated that the
CERCLIS contingency plan had since been updated to reflect the changes to the
application’s operating environment and completed another tabletop review of the
new plan in December 2005.




                                 4

Recommendations
         We recommend that the Comprehensive Environmental Response, Compensation,
         and Liability Information System (CERLIS) System Owner:

            1.	 Conduct an independent review of security controls and a full formal risk
                assessment of CERCLIS and update the certification and accreditation
                package in accordance with Federal and Agency requirements,

            2.	 Conduct a test of the updated CERCLIS contingency plan, and

            3.	 Develop a Plan of Action and Milestones in the Agency’s security
                weakness tracking system (ASSERT database) for all noted deficiencies.

         We recommend that the Office of Solid Waste and Emergency Response
         (OSWER) Information Security Officer:

            4.	 Conduct a review of OSWER’s current information security oversight
                processes and implement identified process improvements.

Agency Comments and OIG Evaluation

         OSWER concurred with many of the report’s findings and indicated that the
         office took or planned steps to remediate the identified weaknesses. OSWER also
         provided additional details regarding its processes for maintaining the CERCLIS
         contingency plan and we modified the report to remove the recommendation to
         develop and implement a plan to maintain the contingency plan. OSWER also
         indicated that based on actions already taken, no further Plan of Action and
         Milestones are needed. However, given the resources required to complete the
         risk assessment and to test a contingency plan, we feel OSWER should record
         these significant security-planning activities in the Agency’s security tracking
         system. OSWER’s complete response is included as Appendix A.




                                         5

                                                                                  Appendix A

                   Agency Response to Draft Report


March 2, 2006

MEMORANDUM:

SUBJECT:        OSWER Response to Audit Report:
                Information Security Series: Security Practices of the Comprehensive
                Environmental Response Compensation Liability Information System
                (CERCLIS)/Assignment No: 2005-000661

FROM:           Susan Parker Bodine/s/
                Assistant Administrator

TO:             Rudolph M. Brevard
                Director, Information Technology Audits
                Office of Inspector General

        Thank you for the opportunity to respond to the audit report on Information Security
Series: Security Practices of the Comprehensive Environmental Response Compensation
Liability Information System (CERCLIS). We appreciate your efforts to ensure the Agency is in
compliance with the Federal Information Security Management Act (FISMA) by conducting
annual audits of our applications. This memorandum addresses the accuracy of the audit report
and identifies the corrective actions already initiated to ensure compliance.

RESPONSE TO RECOMMENDATIONS:

The system owner has provided the following information in response to your recommendations:

1. Update the CERCLIS certification and accreditation package in accordance with Federal and
Agency requirements by ensuring that (1) the Security Plan is up to date, (2) an independent
review of security controls and a full formal risk assessment are performed, and (3) management
formally reauthorizes CERCLIS for operation.

The Security plan was updated and signed by the certifying official on 12/23/05 and by the
authorizing official on 02/01/06.

The management, operational and technical security controls for the CERCLIS application are
tested for effectiveness on a regular basis. The most recent review and independent tests for
effectiveness of security controls were conducted by Booz Allen Hamilton, with a report
delivered to EPA in February 2004. The risk assessment included documentation reviews,

                                                6

manual and automated assessments of both computer hardware and software, which support the
CERCLIS application. The risk assessment involved evaluating management, technical, and
administrative controls already implemented. The elements of risk (threat, vulnerability,
countermeasures, and impact) were evaluated as well.

In addition to the risk assessment, CERCLIS performs weekly and monthly reviews of all audit
reports and logs. User accounts are reviewed quarterly to ensure accounts are valid. A
determination is made regarding access to the system based on pre-determined roles and
user/member groups. Accounts are reviewed to ensure users have taken the required annual
security training. Accounts are deleted if they have not been active within ninety days.
Consequences for violating access privileges and the Rules of Behavior are taken seriously; user
ids are removed or suspended for violations. Quarterly reviews of management and operational
controls are a part of the standard operating procedures for the CERCLIS application.

CERCLIS is moving away from performing a major risk assessment every three years to
continuous monitoring of the application. Areas of focus are the management and control of its
hardware, and performing security impact analysis. The agency has several IT security tools
approved for use, licensed by EPA and available to Information Security Officers, System
Administrators, and Local Area Network (LAN) Managers and Administrators to help protect IT
assets. The CERCLIS Team Leader will make a determination when the next risk assessment is
to be scheduled.

2. Conduct a test of the updated CERCLIS contingency plan.

OSRTI conducted the recommended test of the updated CERCLIS contingency plan on
December 17, 2005.

3. Develop and implement a process to test and maintain the CERCLIS contingency plan. The
process should ensure the plan is tested at least annually and that the plan is updated whenever
significant changes occur to the system, supported business processes, key personnel, or to the
contingency plan itself.

Over the past year, the Office of Superfund Remediation and Technology Innovation (OSRTI)
has worked closely with EPA’s National Computing Center (NCC) to centralize the CERCLIS
Regional databases. As a follow-up to this work, the Contingency Plan for CERCLIS was
revised in September 2005. Furthermore, a coordinated effort with the NCC has taken place to
perform a table-top review of the CERCLIS application. The tabletop review was tested with
participation and concurrence by the NCC on December 17, 2005. In complying with Agency
standards, OSRTI has used the two National Institute of Standards and Technology (NIST)
documents which focus specifically on contingency planning and testing. The first NIST
document (NIST 800-84, Guide to Single-Organization IT Exercises) describes the procedures
for the table-top review. The second document (NIST 800-34, Contingency Planning Guide for
Information Technology Systems) describes in detail how to write a Contingency Plan.




                                                7

4. Develop a Plan of Action and Milestone in the Agency’s security weakness tracking system
(ASSERT database) for all noted deficiencies.

Based on actions already taken as noted above, no further action is required because the noted
deficiencies have been addressed.

5. Develop and implement a plan to re-evaluate system security oversight processes to ensure the
above recommendations are uniformly applied to all general support systems and major
applications within OSWER.

The OSWER Information Security Officer (ISO), in coordination with and supported by the
Senior Information Official (SIO) and Information Management Officer (IMO), oversees a
coordinated review of all OSWER systems annually with ongoing monitoring of major security
milestones throughout the year. OSWER uses the Agency’s ASSERT System to manage this
process. Self-assessments occur annually and Plan of Actions and Milestones are generated to
ensure changes or needed processes are addressed. OSWER’s security status, as recorded in
ASSERT, is independently audited by the Office of Environmental Information.

Please feel free to contact Robert King at 703.603.8792 or William Bushee at 703.603.8963, if
you have any questions or need additional information.

cc:    	Renee Wynn
       Kevin Phelps
       Paula Rodriguez
       Michael B. Cook
       Joan Harrigan-Farrelly
       Patricia Gowland




                                                8

                                                                            Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Acting Assistant Administrator for Environmental Information
Acting Director, Technology and Information Security Staff
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Technology and Information Security Staff
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Inspector General




                                            9

